OIG Audit Report

United States Marshals Service Intergovernmental Service Agreement for Detention Services with Marion County, Indiana
Office of the Inspector General



Executive Summary


The Office of the Inspector General, Audit Division, completed an audit of the Intergovernmental Service Agreement (IGA) between the United States Marshals Service (USMS) and Marion County, Indiana (County).  From August to December 1997, the County billed the USMS a total of $559,650 for 10,660 jail days.  During the same period, it billed the Bureau of Prisons (BOP) $4,620 for 88 prisoner days.
Review of the latest IGA modification between the County and the USMS, effective August 1, 1997, revealed that the Form USMS-243 Cost Sheet for Detention Services (Cost Sheet) was improperly completed because the Marion County Jail (Jail) did not provide actual costs as required.  The IGA modification stipulated that actual costs from the latest accounting period be used to determine the daily rate.  According to officials, 1996 actual costs were used; however, we determined that, in fact, various budget estimates were used to prepare the Cost Sheet.  As a result, the negotiated prisoner per diem rate was overstated by $9.58.  Consequently:

Had the audited rate been in effect for the period August through December 1997, the USMS and BOP would have saved $102,123 and $843 respectively.
The USMS and BOP could save an estimated $245,095 and $2,023 respectively, by using the audited jail day rate of $42.92, annually.




 




Return to OIG Home Page